No. 19-554

In THE
Supreme Court of the United States

 

50 Murray STREET ACQUISITION, LLC
Petitioner,
Vv.

JOHN KUZMICH, ET AL.,
Respondents.

 

CERTIFICATE OF COMPLIANCE

 

Thereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Professor Richard A. Epstein as Amicus Curiae in Support of Petitioner
contains 4,300 words and complies with the word limitation established by Rule
33.1(g)(iii) of the Rules of this Court.

Dated: November 27, 2019

bt J. Wilhelm
